FILED

UNITED STATES COURT OF APPEALS

MAY 20 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,.
v.

No.

08-30311

D.C. No.
3:06-CR-00096-HRH-1
District of Alaska,.
Anchorage

DON ARTHUR WEBSTER, Jr.,
ORDER
Defendant-Appellant.
Before: KLEINFELD and CALLAHAN, Circuit Judges.
Appellant’s pro se motion to recall the mandate [Docket #71] is denied. The
mandate issued on January 25, 2012. No further filings will be entertained in this
closed case.

/-CF-2-

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 21 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

20-71342

In re: DON ARTHUR WEBSTER, Jr.

No.

DON ARTHUR WEBSTER, Jr.,

D.C. No. 3:06-cr-00096-HRH
District of Alaska,
Anchorage

Petitioner,
ORDER
v.
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA,
Respondent,
UNITED STATES OF AMERICA,
Real Party in Interest.
Before: SILVERMAN, NGUYEN, and COLLINS, Circuit Judges.
Petitioner has not demonstrated that this case warrants the intervention of the
court by means of the extraordinary remedy of mandamus. See Bauman v. U.S.
Disc. Court, 557 F.2d 650 (9th Cir. 19 /7). Accordingly, the petition is denied.
The motion to recall or amend the mandate in appeal No. 08-30311 has been
filed in that case.
No further filings will be accepted in this closed case.
DENIED.
APp£7\JD/* - A
.

2 £>p- Z.

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 19 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DON ARTHUR WEBSTER, Jr.,

No.

18-73272

Applicant,
v.

ORDER

UNITED STATES OF AMERICA,
Respondent.
Before:

McKEOWN, BYBEE, and OWENS, Circuit Judges.

In this application for authorization to file a second or successive 28 U.S.C.
§ 2255 motion in the district court, the applicant contends that his convictions
under the Trafficking Victims Protection Act (“TVPA”), 18 U.S.C. § 1591, must
be vacated in light of Bond v. United States, 572 U.S. 844 (2014). The applicant
has not made a prima facie showing that Bond is applicable and supports his
request for authorization. See Henry v. Spearman, 899 F.3d 703, 705-08 (9th Cir.
2018) (discussing prima facie showing necessary under 28 U.S.C. § 2244(b)(2)(A)
to “rely on” on a new, retroactive rule of Supreme Court law); see also United
States v. Walls, 784 F.3d 543, 547 (9th Cir. 2015) (distinguishing the statute in
Bond from the TVPA and concluding that Congress intended the TVPA to
“address[] sex trafficking at all levels of activity”). Compare 28 U.S.C.

ABPgmdix-B
/ £>F z.

A

.

§ 2244(b)(2)(A) with 28 U.S.C. § 2255(h)(2). The application is denied. The
applicant has not made a prima facie showing under section 2255(h) of:
(1) newly discovered evidence that, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and
convincing evidence that no reasonable factfinder would have found the
movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable.
Any pending motions are denied as moot.
No further filings will be entertained in this case.
DENIED.

fiPPmo/t-s
& e>P c
2

18-73272

Case: 08-30311

11/28/2011

ID: 7979628

DktEntry: 62-1

Page: 1 of 9

FILED
NOV 28 2011

NOT FOR PUBLICATION

MOLLY C. DWYER, CLERK

UNITED STATES COURT OF APPEALS

U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

No. 08-30311
D.C. No. 3:06-CR-00096-HRH-l

v.

MEMORANDUM*
DON ARTHUR WEBSTER, Jr.,
Defendant - Appellant.

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

No. 09-30182
D.C. No. 3:06-CR-00096-HRH-l

v.

DON ARTHUR WEBSTER, Jr.,
Defendant - Appellant.

Appeal from the United States District Court
for the District of Alaska
H. Russel Holland, Senior District Judge, Presiding
Argued and Submitted July 27, 2011
Anchorage, Alaska
This disposition is not appropriate for publication and is not precedent
except as provided by 9th Cir. R. 36-3.
-C
/

?

Case: 08-30311

11 /28/2011

ID: 7979628

DktEntry: 62-1

Page: 2 of 9

Before: B. FLETCHER, KLEINFELD, and CALLAHAN, Circuit Judges.

Don Webster, Jr., was convicted of two counts of sex trafficking of children
in violation of 18 U.S.C. § 1591; nine counts of sex trafficking by force, fraud, or
coercion, also in violation of § 1591; and fourteen counts of distribution of cocaine
in violation of 21 U.S.C. § 841. He was sentenced to 360 months imprisonment
and ordered to pay over $3.6 million in restitution to the women victims he
trafficked. Webster appeals his convictions of sex trafficking by force, fraud, or
coercion, his sentence, and the restitution.order. We have jurisdiction under 28
U.S.C. § 1291 and affirm.
I
Webster’s challenge to his convictions of sex trafficking by force, fraud, or
coercion is two-fold. First, Webster challenges the jury instruction defining
“force.” Second, he argues that the adult victims’ testimony demonstrates
voluntary participation in prostitution.
Section 1591 prohibits sex trafficking “knowing, or in reckless disregard of
the fact, that means of force, threats of force, fraud, coercion . . . , or any
combination of such means will be used to cause the person to engage in a
commercial sex act.” The statute defines “coercion,” but leaves undefined the

-2■&PPGtM- C
2
f

Case: 08-30311 * 11/28/2011

ID: 7979628

DktEntry: 62-1

Page: 3 of 9

terms “force” and “fraud.” Over Webster’s objection, the district court instructed
the jury that “[fjorce is defined as any form of violence, compulsion or constraint
exercised upon or against a person.” Webster contends that this jury instruction
allowed the government to argue that Webster’s practice of giving the women
cocaine and then refusing to provide drugs unless the women prostituted
themselves constituted “force.”
Even assuming the definition of force was too broad, any error was harmless
because Webster was prosecuted under alternative theories of guilt, and the
evidence established that Webster would have been convicted based on coercion.
See Hedgpeth v. Pulido, 555 U.S. 57, 61-62 (2008) (per curiam) (an instructional
error arising in the context of multiple theories of guilt is subject to harmless-error
analysis); United States v. Skilling, 130 S. Ct. 2896, 2934 n.46 (2010) (extending
the holding of Pulido, which was a case on collateral review, to cases on direct
appeal). An error is harmless if a court, after a “thorough examination of the
record,” is able to “conclude beyond a reasonable doubt that the jury verdict would
have been the same absent the error.” Neder v. United States, 527 U.S. 1,19
(1999).
The evidence shows that Webster took away the women’s identification
cards and cell phones and required them to follow numerous rules designed to

-3-

APPejvd/x-cl
£ e>^

Case: 08-30311

11/28/2011

ID: 7979628

DktEntry: 62-1

Page: 4 of 9

ensure his control of all aspects of the women’s lives. Webster enforced his rules
by punishing and beating the violators himself or with the help of other women,
and made sure that the other women knew about the consequences when one
woman disobeyed his rules. Wendy Ross testified that she witnessed a “family
meeting” called by Webster that left one woman bleeding on the floor. Jessica
Houser, in addition to being beaten herself by Webster and, on Webster’s orders,
by other women, witnessed Webster punch another woman in the face and ribs to
make “an example out of her.” There are other similar stories testified to by the
women and girls who worked for Webster. Additionally, Webster required that the
women make themselves available to him sexually; if they declined, they risked
being raped by Webster. He told some of the women that they were doing “life
without parole” and that he would track them down if they dared to leave.
Although some women were able to leave without interference, Webster found and
dragged one woman back by her hair after she tried to escape.
The severe beatings that Webster administered, which he had the other
women and girls attend and observe, would naturally Cause the observers to infer
that similar violence might be inflicted on them if they disobeyed any of Webster’s
rules. Webster’s pattern of fostering an environment of fear of physical harm
where violations of various rules were severely punished constituted a “scheme,

-4APPeMO)*
V of-

Case: 08-30311

11/28/2011

ID: 7979628

DktEntry: 62-1

Page: 5 of 9

plan, or pattern intended to cause a person to believe that failure to perform an act
would result in serious harm to or physical restraint against any person

18

U.S.C. § 1591 (e)(2)(B) (defining “coercion”). This evidence is more than
sufficient to sustain a conviction for sex trafficking through the use of coercion.
United States v. Todd, 627 F.3d 329, 334 (9th Cir. 2010). Here, any instructional
error regarding the district court’s definition of “force” was harmless, and we
affirm Webster’s convictions.
II
Next, Webster challenges his sentence. Because under the Sentencing
Guidelines the base offense level for Webster’s drug trafficking offenses dwarfed
the levels for his sex trafficking offenses, the quantity of drugs Webster distributed
to the women drove the determination of his Guidelines range. See United States
v. Culps, 300 F.3d 1069, 1076 (9th Cir. 2002); U.S.S.G. § 2Dl.l(a), (c) (2004).
The district court’s determination of drug quantity is a factual issue reviewed
for clear error. United States v. Alvarez, 358 F.3d 1194, 1231 (9th Cir. 2004).
“Approximations of drug quantity must meet three criteria.” Culps, 300 F.3d at
1076. First, “the government is required to prove the approximate quantity by a
preponderance of the evidence . . . [which means that] [t]he district court must
conclude that the defendant is more likely than not actually responsible for a

-5-

APPmo/x-d,

9

Case: 08-30311

11/28/2011

ID: 7979628

DktEntry: 62-1

Page:6of9

quantity greater than or equal to the quantity for which the defendant is being held
responsible.” Id. (internal quotation marks and citation omitted). Second, “the
information which supports an approximation must possess sufficient indicia of
reliability to support its probable accuracy.” Id. (internal quotation marks
omitted). Third, since the “sentence depends in large part upon the amount of
drugs . . . and approximation is by definition imprecise, the district court must err
on the side of caution” in approximating the drug quantity. Id.
The district court determined that Webster distributed a total of 6.2
kilograms of cocaine to the underage women and 29 kilograms to the. adult women.
Both quantities yielded a base offense level of 34. The court then added a fourlevel role adjustment and a two-level multi-count adjustment to arrive at a total
offense level of 40. Given Webster’s criminal history category of V, this yielded
an advisory Guidelines range of 360 months to life.
In determining the quantity of drugs, the district court employed a version of
the accepted multiplier method: the number of weeks trafficked, times the number
of days trafficked per week, times the number of sex acts per day, times the
quantity of cocaine received per. sex act, plus relevant conduct (other cocaine that
Webster distributed to a victim). See id. at 1077’. The method is permissible where
there are sufficient indicia of reliability for each of the figures included in the

-6-

Case: 08-30311

11/28/2011

ID: 7979628

DktEntry: 62-1

Page: 7 of 9

equation. Id.
Webster argues the district court failed to “err on the side of caution”
because it did not use the lowest figure testified to for the weight of an “issue” (the
quantity of cocaine Webster gave the girls for each “date”), 0.5 grams. However,
the district court based its average weight of cocaine per issue on the witnesses’
testimony. The witnesses were not all in complete agreement as'to the weight of
an issue, but most testified an issue was about a gram, and only one witness
estimated an issue was 0.5 grams. A sentencing judge may choose between
equally plausible estimates when approximating drug quantities, so long as he
takes the margin of error into account when doing so. United States v. Scheele
231 F.3d 492, 499 (9th Cir. 2000). In Scheele, the district court arrived “at a
quantity that was barely above the amount that would have led to a significantly
lower sentencing range” —- slightly over one percent above the minimum amount
for a base offense level of 34. Id. at 499. Here, the sentencing judge noted that
even if the amount actually trafficked by Webster was only half what the judge had
calculated, the Guidelines range would not change. We are persuaded that in
actuality, it appears that the error would have to be about 45% to affect the
Guidelines range. The district court sufficiently erred on the side of caution in
approximating the quantity of drugs trafficked by Webster.

-7-

AFPemoja- £.
7 op 7

Case: 08-30311

11/28/2011

ID: 7979628

DktEntry: 62-1

Page: 8 of 9

III
Webster argues that the district court improperly deprived him of the
constitutional right to have restitution decided by a jury. We have already rejected
this argument. See United States v. Bussell, 414 F.3d 1048, 1060 (9th Cir. 2005).
Webster’s remaining arguments are that the district court erred by awarding
prostitution proceeds as restitution, that restitution should be limited to the victim’s
actual losses, and that the district court’s computation of the restitution was flawed.
We review de novo the legality of a restitution order and, if the order is
within statutory bounds, we review the amount of restitution for abuse of
discretion.

United States v. Kuo, 620 F.3d 1158, 1162 (9th Cir. 2010). The

statutory language is clear that mandatory restitution includes not only the victims
actual losses, but also the defendant’s ill-gotten gains. See 18 U.S.C. § 1593(b)(3).
Webster challenges the amount of the district court’s restitution order. The
district court relied on a multiplier method similar to that used for the drug quantity
calculation. The formula employed was as follows: the number of weeks
trafficked times the average number of days worked per week times the average
number of dates per day times $150—the minimum amount the victims charged for
a date, not including the fees for any sex acts.
Any error in the district court’s figure is more than offset by the conservative

-8-

APfewott - c
$> of

Case: 08-30311

11/28/2011

ID: 7979628

DktEntry: 62-1

Page: 9 of 9

estimate of the fee per date used to determine restitution. The court.used $150 per
date in determining restitution, while most of the girls testified that they regularly
made substantially more per date. Three of the women testified that they regularly
made between $400 and $700 per date and sometimes thousands. The district
court need only “estimate, based on facts in the record,” the victims’ losses “with
some reasonable certainty.” United States v. Doe, 488 F.3d 1154, 1160 (9th Cir.
2007). Although there may have been some uncertainty, the district court’s
restitution determination met this standard.
AFFIRMED

-9fiPPeNOlX'C

h

/
" si

n

«*

*

/

O

J

IN'THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA

UNITED STATES OF AMERICA,

)
)

Plaintiff,

)
)

vs.
No. 3:06-cr-0096-HRH
DON ARTHUR WEBSTER, JR.,

(

)

Defendant.

)
)

REVISED ORDER
Motion under 28 U.S.C. S 2255
Defendant moves to vacate his conviction and sentence pursuant
to 28 U.S.C. § 2255.1
entered
counsel.2

an

order

After defendant filed his motion, the court

advising

defendant

of

his

right

to

request

Defendant made no request for counsel and the court

entered an order setting the briefing schedule for the instant
motion.3
Plaintiff timely filed its response to defendant's motion.4
As

a result

of

the

court granting defendant's

request

extension of time,5 defendant's reply brief was due on June 24,
2013 .

-1

for an

1

When no reply was received by June 28, 2013, the court ruled

^Docket No. 585.
2Order re Case Status, Docket No. 588.
3Docket No. 589.
4Docket No. 590.

1

sDocket No. 592.
Revised Order

Motion under 28 U.S.C. § 2255
;

Case 3:06-cr-00096-HRH Document 608 Filed 09/19/13 Page 1 of 12

1
APpENDIt-D
/ - OP-- s

L

7
• »

f

Defendant has failed to show either cause and prejudice or
actual innocence.

Defendant's foreign commerce, nexus issue might

have been, but was not raised in defendant's direct appeal.

Thus,

he has procedurally defaulted on his claims in Grounds One, Two,
and Three that this court lacked subject matter jurisdiction as to
the

plaintiff's

TVPA

charges.

On

the

merits

of

defendant's

arguments as to Grounds One, Two, and Three, this court does have
subject-matter jurisdiction,

As discussed in greater detail below,

the TVPA does require as an element of plaintiff's TVPA charges
proof of either a foreign commerce or interstate commerce nexus,
but not both;

and defendant does not challenge the plaintiff's

evidence of an interstate commerce nexus in this case.
In Ground Four of his motion, defendant makes an ineffective
assistance

of

counsel

claim.

"Constitutionally

ineffective

assistance of counsel constitutes sufficient cause to excuse a
procedural default."

RatjLgan,

351 F.3d at 964-65.

"Claims of

ineffective assistance of counsel are governed by Strickland, which
requires

a

petitioner

to

demonstrate:

(1)

'that

counsel's

performance was deficient' and (2) 'that the deficient performance
prejudiced the defense.
Cir.

2010)

/ n

Hein v. Sullivan. 601 F.3d 897, 918 (9th

(quoting Strickland v. Washington.

466 U.S.

668,

687

(1984)) .
Defendant contends generally that trial counsel's performance
was ineffective "during the pre-trial, trial and sentencing "ect
/

Revised Order

Motion under 28 U.S.C. § 2255

8
A-ppgMpot -D
Z. £>!=&■

Case 3:06-cr-00096-HRH Document 608 Filed 09/19/13 Page 8 of 12

\

L

*
• V

k

[sic] direct appeal process [;] "24 and in Ground Four and in his
briefs asserts that:
GROUND FOUR: Defense Counsel's failure to
challenge defective indictment; Government's
Non Legal Standing; Nor the court's lack of
subject matter jurisdiction; Denied movant
Sixth Amendment right to effective legal
representation.
(a) Supporting facts.... Counsel had an
obligation to know (or inform itself) that the
T.V.P.A. could not be lawfully applied absent
required foreign nex-for [sic] the criminal
prosecution of it's client.
Defendant contends that his trial counsel was ineffective because
throughout the prosecution proceedings he failed to raise the
foreign commerce nexus argument.

This is not a viable claim of

ineffective assistance of trial counsel because as a matter of law
there is no foreign commerce nexus required for the TVPA violations
as to which an interstate commerce nexus has been proved.
Section

1591(a)

of

Title

18

of

the

United

States

Code

provides, in pertinent part:
<i

>>

(a) Whoever knowingly —
(1) in or affecting interstate or foreign
commerce, or within the special maritime and
•.territorial jurisdiction of the United States,
recruits, entices, harbors, transports, pro­
vides, obtains, or maintains by any means a
person; ...
. /.knowing’, or in reckless disregard of the
fact, that means of force, threats of force,
fraud,
coercion described in subsection
(e)(2), or any combination of such means will
be used to cause the person to engage in a
commercial sex act, or that the person has not
attained the age of 18 years and will be'
caused to engage in a commercial sex act,
■\

24Docket No. 5 85 at 4.
Revised Order

Motion under 28 UiS.C. § 2255

Case 3:06-cr-00096-HRH Document 608 Filed 09/19/13 Page 9 of 12

9
APPeMQ/x-D
3-of* 5“

J

r

jv.

L

f

»

-1 * m
.*

required by § 1591(a) was met by the plaintiff's proof, there was
no legal requirement that plaintiff prove a foreign nexusTj
Although the
defendant's

Ninth Circuit

foreign

commerce

has

never

argument,

it

directly addressed
has

affirmed

TVPA

convictions that involved interstate commerce but which did not
have an obvious foreign commerce nexus.

See United States v.

Jackson. 697 F.3d 1141 (9th Cir. 2012); United States v. Brooks.
610 F.3d 1186 (9th Cir. 2010).

In this case, plaintiff showed that

defendant's sex trafficking affected interstate commerce by the use
of cell phones, the use of hotels that host out-of-state travelers,
and the use of condoms produced outside the state,

That showing

was sufficient to satisfy the jurisdictional element of a TVPA
violation.

See United States v. Evans. 476 F.3d 1176,

(11th Cir. 2007)

1179-80

("Evans's use of hotels that served interstate .

travelers and distribution of condoms that traveled in interstate
commerce are further evidence that Evans's conduct substantially
affected interstate commerce").
Conclusion
Defendant's

foreign

commerce

contentions,

subject matter jurisdiction argument,

including

his

all fail for purposes of

defendant's Grounds One, Two, and Three.

Defendant's ineffective

assistance claim in Ground Four based upon counsel's failure to
raise an argument that a TVPA'violation requires a foreign commerce
nexus also fails because defendant's trial and appellate counsel
cannot be faulted for failing to mount meritless challenges.

Revised Order

Motion under 28 U.S.C. § 2255

11
APPEHQtX. -D

Case 3:06-cr-00096-HRH Document 608 Filed 09/19/13 Page 11 of 12 V-^-£T

4

>

f - ' ’ \

.v ■ Ny
\

Defendant's motion pursuant to 28 U.S.C. § 225529 is denied.
DATED at Anchorage, Alaska, this 19th day of September, 2013.

/s/ H. Russel Holland_______
United States District Judge

J

-i

1

J
29Docket No. 585.

Revised Order

Motion under 28 U.S.C. § 2255

12
APPeA/D/x-rJ
JT <*/= S'

Case 3:06-cr-00096-HRH Document 608 Filed 09/19/13 Page 12 of 12

L

1

I

Additional material
from this filing is
available in the
Clerk's Office.

